U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: W. Clark Aposhian v. Merrick B. Garland, Attorney General, et al.,
S.Ct. No. 21-159
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021, and placed on the docket on August 4, 2021. The government’s response is due on
September 3, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 4, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-0159
APOSHIAN, W. CLARK
MERRICK B. GARLAND, ATTORNEY GENERAL, ET
AL.

CHARLES JUSTIN COOPER
COOPER & KIRK PLLC
1523 NEW HAMPSHIRE AVENUE, N.W.
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
CALEB KRUCKENBERG
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
CALEB.KRUCKENBERG@NCLA.LEGAL

